                                                            U.S. Department of Justice

                                                            United States Attorney
                                                            Western District of Washington

Jenny A. Durkan                                             U.S. Courthouse
United States Attorney                                      700 Stewart Street, Suite 5220
                                                            Seattle, Washington 98101
                                                            206-553-7970

FOR IMMEDIATE RELEASE                                       PRESS CONTACT:
January 5, 2012                                             Emily Langlie 206-553-4110

    KITSAP COUNTY WOMAN PLEADS GUILTY TO THEFT FROM HOME FOR
                     DEVELOPMENTALLY DISABLED
               Fiscal Analyst Stole More Than $300,000 Over Seven Years

        A long-time employee of a residential facility for the developmentally disabled in
Bremerton, Washington, pleaded guilty today to theft of government funds, announced U.S.
Attorney Jenny A. Durkan. KRISTI OSBORNE, 66, who served as a Fiscal Analyst at the
Frances Hadden Morgan Center admits to stealing $304,755 from three bank accounts she
oversaw that held money belonging to the disabled residents and to the center. When sentenced
by U.S. District Judge Robert J. Bryan on March 30, 2012, OSBORNE faces up to ten years in
prison.

        “At a time when our state facilities are struggling to stretch every dollar, this type of
sophisticated long-term embezzlement is a horrible breach of trust,” said U.S. Attorney Jenny A.
Durkan. “This defendant took money from developmentally disabled people who relied on her,
and also stole community funds intended to better their lives.”

        According to the plea agreement, OSBORNE repeatedly forged documents and submitted
false requests for funds under the guise that they had been requested for the benefit of center
residents. OSBORNE inflated the amounts that had been requested and kept the additional cash.
OSBORNE’s scheme used unwitting third parties to cash the checks and return the funds to her.
The embezzlement occurred between 2003 and November 2010, when her scheme was
discovered by an audit team from the Department of Social and Health Services. OSBORNE
took money from three different accounts – one account held funds belonging to the residents,
another contained state and federal funds and the third was a fund made up of gifts and
contributions the public had made to benefit the disabled residents at the Frances Hadden
Morgan Center.

       Washington State closed the Frances Hadden Morgan Center in December 2011, with
residents moving to community based group homes or other residential institutions.
      The case was investigated by the Social Security Administration Office of the Inspector
General, the Washington Department of Social and Health Services, and the Bremerton Police
Department.

       The case is being prosecuted by Special Assistant United States Attorney Seth Wilkinson.
Mr. Wilkinson is an attorney with the Social Security Administration, specially designated to
prosecute Social Security related cases in federal court.

       For additional information please contact Emily Langlie, Public Affairs Officer for the
United States Attorney’s Office, at (206) 553-4110 or Emily.Langlie@USDOJ.Gov.
